I

No.

2o- /?/?
IN THE

SUPREME COURT OF THE UNITED STATES

Allen B. Shay - PETITIONER
vs.
Alfred H. Siegel, Chapter 7 Bankruptcy Trustee - RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATE COURT OF APPEALS OR THE 9th CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Allen Shay
175 South Lake Avenue Suite 303
Pasadena, CA 90010
T:(626) 584-0499

filed
KV f 1 2019

F:(626)584-0703
Shayandassociates@hotmail.com

RECEIVED
mar 2 6 2021
_S UPREMg'nn] foTLn

I. QUESTIONS PRESENTED
1.

Does a petitioner in pro se seeking bankruptcy have the same 14th amendment
due process protection and equal rights protection guaranteed under the constitution
as creditors when there are extreme economic fluctuations where there has been no
9th circuit court cases or safeguards since the holding in Haines v. Kerner 1972?

2.

Whether a bankruptcy court commits Fraud on the court when the judicial
machinery itself has been tainted, such as when an attorney, who is an officer of the
court, is involved in the perpetration of a fraud or makes material misrepresentations
to the court along with the bankruptcy’s trustee and his or her retained professional
agents?

3.

Does a trustee or bankruptcy courts abuse its authority against debtors when it
contravenes codes, specific statutory provisions or the authority provided by
Congress?

4.

Did the trustee commit gross negligence or an act of wanton and reckless
disregard for the debtor, that such acts permit this court to grant Petitioner the
right to bring any and all legal actions against Alfred H. Siegel in his capacity as a
bankruptcy trustee?

5.

Should a circuit split exist within the 9th circuit court of appeal where a trustee
that had the intent to abandon debtor’s real estate properties and returned all debtor’s
properties after trustee used his discretion to give notice to specific creditors of his
choice, but the bankruptcy court applied Rule 6007(a) instead of Rule 2002 (a) as
provided by authorized agent as directed in its last requested filed in the particular
case; (h) or section 102(1) which provides that "notice and hearing" is construed to
mean appropriate notice and an opportunity for a hearing. Neither §554 nor §725
specify to whom the notices are to be sent. Is this an abuse of discretion?

II. TABLE OF CONTENTS
Page
I.

QUESTIONS PRESENTED.

i

II.

TABLE OF CONTENTS......

ii

III.

TABLE OF AUTHORITIES

iii

IV.

PETITION FOR WRIT OF CERTIORARI

1

V.

OPINIONS BELOW

1

VI.

JURISDICTION

1

VII.

CONSTITIONAL PROVISIONS INVOLVED

2
,3

VIII. STATEMENT OF THE CASE
1. Amended Petitioner’s schedules in June 2012.................................

4

2. Trustee’s realtor’s evaluation and abandon notice.........................

6

3. Trustee’s motion filed in 2015 and the court’s judgment.............. .

7

4. Motion to invalidate abandonment notice and fraud on the court

5.

IX.

By trustee, trustee’s new realtor and creditor.................................

9

Due process violation.........................................................................

11

6. Petitioner’s 60 (b) Motion.................................................................

11

REASONS FOR GRANTING THE WRIT..................................

14

A. TO AVIOD EGREGIOUS, ABUSIVE OR ERRONEOUS
DEPRIVATIONS OF DUE PROCESS, THIS COURT
SHOULD CLARIFY THE “CONSTITUTIONAL AND
STATUTORY PROVISIONS” APPLIED TO PREVENT
A BANKRUPTCY COURT FROM CONTRAVENING A
TRUSTEE’S AMINISTRATIVE AUTHORITY GRANTED
BY CONGRESS
X.

CONCLUSION

,29

XI.

APPENDIX

.30

n

III. TABLE OF AUTHORITIES
Cases

U.S. SUPREME COURT
Law v. Siegel, 571 U.S.415 (2014)................................ .....................

11,21,28

Local Loan Co. v. Hunt, 292 U.S. 234, 244 (1934)............................

..9, 28, 29

Haines v. Kerner,1972. Cite, 404 U.S. 519, 92 S.Ct. 595, 30 L.Ed.2d

9,10

Boddie v. Connecticut (1971), 401 U.S. at p. 377...............................

10

Procunier v. Martinez (1974) 416 U.S. 396, 419................................

10

Cruz v. Beto (1972) 405 U.S. 319,321...............................................

10

Johnson v. Avery (1969) 393 U.S. 483, 487.......................................

10

Chambers v. NASCO, Inc., 501 U.S. 32, 44 (1991)............................

17

Liteky v. United States, 510 U.S. 540, 558 (1994)

17

In In re Murchison, 349 U.S. 133, 136 (1955)

17

Simer v. United States, 456 U.S. 917, 102 S.Ct. 1773, 72 L.Ed.2d 177 (1982)

18

Williams v. U.S. Fidelity & Guaranty Co., 236 U.S. 549, 554, 555

28

NINTH CIRCUIT
Toscano v. C.I.R., 441 F.2d 930, 933 (9th Cir.1971)

13, 16, 27

In re B.U.M. Int'l, Inc., 229 F.3d 824 (9th Cir. Cal. 2000)

8

Wyle v. C.H. Rider & Family, 944 F.2d 589 (C.A.9 Cal. 1991)

8

Johnston v. Webster (In re Johnston), 49 F.3d 538, 540 (9th Cir.1995)

9, 10

Sierra v. Westinghouse Electric Co. (9th Cir. 1986) 789 F.2d 705, 709

14

United States v. Montgomery, 384 F.3d 1050, 1062 (9th Cir. 2004)

,22

United States v. Romero, 282 F.3d 683, 687 (9th Cir. 2002)

22

Toscano v. C.I.R., 441_F.2d_930, 933 (9th Cir.1971)

27

m

OTHER CIRCUITS

Sherman v. Novak (In re Reilly), 245 B.R. 768, 773 (B.A.P. 2nd Cir. 2000)

27

In re Lenz, 110 B.R. 523, 525 (D. Colo. 1990)......................................

27

In re Circle J Dairy, 112 B.R. at 300..............................................................

.27, 28

In re Consumers Realty & Dev. Co., 238 B.R. 418 (B.A.P. 8th Cir. 1999)...

11,28

In re Alleghany Int’l, Inc., 954 F.2d 167, 173-74 (3rd Cir. 1992)

11,28

United States v. Sciuto, 521 F.2d 842, 845 (7th Cir., 1976)

17

Outen v Baltimore County 177 FRD 346, 348 (1998, DC Md)

16

Bulloch v. United States, 763 F.2d 1115, 1121 (10th Cir. 1985)

17

Margo v. Johns, 660 F .2d 291 (7th Cir. 1981)

18

In re Four Seasons Securities Laws Litigation, 502 F.2d 834 (10th Cir.1974), cert, denied,
419 U.S. 1034, 95 S.Ct. 516, 42 L.Ed.2d 309 (1975)

18

Simerv. Rios, 661 F.2d 655 (7th Cir. 1981)

18

Klugh v. United States, 620 F.Supp. 892 (1985)

18

Bass v. Hoagland, 172 F.2d 205 (5th Cir.) (1949)

19

United States v. Indoor Cultivation Equip. 55F.3dl311, 1317 (7th Cir.1995)

19

Price v. Wyeth Holdings Corp., 505 F.3d 624 (7th Cir., 2007)

19

Burrell v. Henderson, et al, 434 F.3d, 826, 831 (6th Cir., 2006)

19

Landscape Prop., Inc. v. Vogel, 46 F.3d 1416, 1422 (8th Cir. 1995)

20

Rozier v. Ford Motor Co., 573 F.2d 1332, 1338 (5th Cir.1978)....................

20

Woodcock v. U.S. Dept, of Educ. 326 B.R. 441, 448 (B.A.P. 8th Cir. 2005)

21

Ocasio v. United States, 136 S.Ct. 1423, 1429-32 (2016)

22

IV

BANKRUPTCY COURTS
First Nat’l Bank of Fayetteville v. Circle J. Dairy (In re Circle J Dairy, Inc.), 112 B.R. 297,
300 (W.D. Ark. 1989)

26

FEDERAL CODES
11 U.S.Code§ 101(5)

,26
,2,3

11 U.S. Code § 102

1,4, 28

11 U.S. Code § 102 (1) (B) (2)

28

11 U.S. Code § 102 (B) (2)

8, 9, 28

11 U.S. Code § 105(a)
11 U.S. Code §455

17

11 U.S. Code § 502(a)

,26

11 U.S. Code §503

12
,26, 28

11 U.S. Code § 503 (b)

27

11 U.S. Code § 503 (1) (A)
11 U.S. Code §554

1, 3,4, 6, 15,28

11 U.S. Code § 704

24

11 U.S. Code § 1106

24

11 U.S. Code § 1202

,24

11 U.S. Code § 1302

24

3,15

11 U.S. Code § 725

,4, 6, 15, 19

11 U.S. Code § 6007(a)
28 U.S. Code § 1254 (1)

,2

28 U.S. Code § 1257(a)

2

v

FEDERAL RULES
7, 14, 25,26, 27

Fed. R. Civ. P. 60(b)
Fed. R. Civ. P. 60(b)(3)

27

Fed. R. Civ. P. 60(b)(4)...

27

Fed. R. Civ. P. 60(b)(6)

27

Fed. R. Civ. P. 60(d)(2)

27

Fed. R. Civ. P. 60(b)(2),(6)

.27
17,18

Federal Rule of Bankruptcy Procedure 6007
OTHER AUTHORITIES

18

Local Rule 6004-1

7

Rules 10 (a)

vi

IV.

PETITION FOR WRIT OF CERTIORARI

Allen B. Shay, a debtor in bankruptcy, received an abandonment notice of all his real
estate properties which included his primary home, the Pine Bluff Drive property of twentyseven years. The abandonment notice was effective from 01/16/2013 to 12/08/2015 when the
bankruptcy court ruled the abandonment notice was ineffective because notice was not sent to
all the debtor’s creditors. Alfred H. Siegel the trustee intended to abandon the properties, used
his discretion to give notice under his authority and had been a bankruptcy trustee for many
years to know his administrative authority and how to use his discretion to carry out giving
notice to debtor’s creditors of his choice.
Approximately three years after an abandonment notice was issued by the Trustee under
his administrative authority granted to him by Congress pursuant to §554, the trustee may
abandon property but only after notice and hearing. This section is applicable in chapter 7
cases. Section 102(1) provides that “notice and hearing” is construed to mean appropriate
notice and an opportunity for a hearing and §554 does not specify to whom the notices are to
be sent. Congress approved the trustees’ authority and discretion to choose which creditors
will be given notice.
The Trustee, his attorney as an officer of the court, his realtor and Janet Hurren
committed fraud on the court, the Bankruptcy court nullified the abandonment notice for the
intended purpose of harming Petitioner as a result of the allegations alleged in two oppositions
filed on August 28, 2015. Petitioner respectfully prays and petitions this court for a writ of
certiorari to review the judgment of the United States Court of Appeals on August 29, 2019.

1

V.

OPINIONS BELOW

The opinion of the United States Court of Appeals appears at Appendix
A to the petition and is unpublished. The opinion of the United States district court appears at
Appendix B to the petition and is unpublished.
VI.

JURISDICTION

The date on which the United States Court of Appeals decided Petitioner’s case was
February 19th, 2019 (submitted) and February 21st, 2019 (entered on docket and filed). A
timely petition for rehearing was denied by the United States Court of Appeals on the following
date: August 29, 2019, and a copy of the order denying rehearing appears at Appendix A. The
jurisdiction of this Court is invoked under 28 U.S.C. 1254 (1) and 28 U. S. C. 1257(a).
VII.

1.

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

United States Constitution - 14th Amendment All persons bom or naturalized in the

United States, and subject to the jurisdiction thereof, are citizens of the United States and of
the state wherein they reside. No state shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
2.

Rule 60(d)(3) of the Federal Rules of Civil Procedure states that nothing in Rule 60 limits

a court’s power to set aside a judgment for fraud on the court.
3.

11 U.S. Code § 102 - Rules of construction: In this title— (1) “after notice and a hearing”,

or a similar phrase— (A) means after such notice as is appropriate in the particular
circumstances, and such opportunity for a hearing as is appropriate in the particular
2

circumstances; but (B) authorizes an act without an actual hearing if such notice is given
properly and if— (i) such a hearing is not requested timely by a party in interest. Section 102( 1)
provides that “notice and hearing” is construed to mean appropriate notice and an opportunity
for a hearing.
4.

11 U. S. C. §105(a) - In exercising those statutory and inherent powers, a bankruptcy

court may not contravene specific statutory provisions. It is hornbook law that § 105(a) “does
not allow the bankruptcy court to override explicit mandates of other sections of the
Bankruptcy Code.”
5.

Sections 554 of the Code permits and require abandonment and disposition of property

of the estate. Congress give the trustees’ authority and discretion to choose which creditors
will be given notice.
6.

Section 725 requires the trustee to dispose of property in which someone other than the

estate has an interest, prior to final distribution. It applies only in chapter 7 cases. Notice and
hearing are also required conditions. Section 102(1) provides that “notice and hearing” is
construed to mean appropriate notice and an opportunity for a hearing, and §725 does not
specify to whom the notices are to be sent.
7.

Article I, Section 8, of the United States Constitution authorizes Congress to enact

"uniform Laws on the subject of Bankruptcies." Under this grant of authority, Congress
enacted the "Bankruptcy Code" in 1978. The Bankruptcy Code, which is codified as title 11
of the United States Code, has been amended several times since its enactment. It is the
uniform federal law that governs all bankruptcy cases.

3

VIII.

STATEMENT OF THE CASE

On May 7, 2012, Petitioner Allen B. Shay in pro se filed for Chapter 7, Case No. 2:12bk-26069-RK, a simple bankruptcy case which included the Pine Bluff Property and the
required creditor’s mailing list consisting of sixty-six creditors. On December 11, 2015,
a motion pursuant to Rule 60 (b) to void an order was entered against Petitioner by the
bankruptcy court. The court misapplied §554 and the Trustee’s authority under Article 1,
Section 8, 11 U.S.C Rule § 102(1). On appeal in the District court, the facts and the law in
the Sierra v. Westinghouse case in which the Trustee did not have the intent to abandon
Sierra’s personal injury case, unlike Petitioner’s case where the Trustee intended to abandon
all Petitioner’s real properties and did so under his authority from Congress.
There were no objections or oppositions from the creditors to the Trustee’s Intent to
Abandon Notice, and in January 2013, the bankruptcy Trustee Alfred H. Siegel was in
compliance of rule 6007(a) and pursuant to §554 used his authority under Article 1, Section
8, 11 U.S.C Rule § 102(1), to abandon all debtor’s real properties. Trustee had affirmatively
administrated the completion of disposing of all Petitioner’s real properties by returning the
properties back to Petitioner and the bankruptcy court no longer had jurisdiction.
Petitioner continued experiencing abuse of authority, discrimination and the perpetration
of fraud on the court as a result of the actions taken by the Trustee, his attorney, Trustee’s
new real estate agent and Petitioner’s former tenant/real estate agent name Janet Hurren and
the bankruptcy court since August 28, 2015. The court could not exercise impartiality after
reading Ms. Hurren’s two oppositions which was used to influence all the parties as well as
the court with misrepresented information.

4

1.

Amended Petitioner’s schedules in June 2012

In June 2012, Petitioner brought to the Trustee’s attention and Petitioner was instructed
by the Trustee, since an error was made regarding the “market value” of Petitioner’s home on
Pine Bluff Drive in Pasadena by his attorney James King who prepared the amended
schedules and changed the “market value” from the amount on the petition of $850,000 to a
market value of $1,450,000. Petitioner was given instructions by the Trustee to get an
independent third-party valuation of the current market value and submit the results to the
Trustee in order to complete his own investigation and make a final determination of the
“market value” of the Pine Bluff property.
Petitioner complied with Trustee’s instructions in order to maintain his bankruptcy
protection and obtain his discharge. Petitioner retained a real estate professional to render the
service and provide the required information to the Trustee in the form of a Broker’s Price
Opinion (BPO) to show the current market value. The market value generated by the BPO
was $740,000 for the Pine Bluff property in June 2012, a decline in value in the amount of
$110,000.
2. Trustee’s realtor’s evaluation and subsequent abandonment notice
In December 2012, the Trustee used his authority and discretion by retaining his
independent-third party real estate agent. She concluded her investigation and determined the
“market value” of the Pine Bluff property was $670,000, a $180,000 decline in the market
value from Petitioner’s original amount of $850,000 shown on the bankruptcy petition filed
on May 7, 2012.
After receiving information of the current market value, the Trustee used his discretion
to abandon all Petitioner’s real properties including the Pine Bluff property. The Intent to

5

Abandon Notice was issued to creditors selected by Trustee and at his discretion to
affirmatively administer the debtor’s estate. Each creditor was given instructions to respond
within the fourteen days’ time period, along with a proof of service attached to the document.
3. Trustee’s motion filed in 2015 and the court’s judgment
Approximately three years after the investigation concluded the “market value” in the
amount of $670,000 for the Pine Bluff property, in December 2015, the court caused to be
ineffective the abandonment notice issued in January 2013. The bankruptcy court deemed the
abandonment notice ineffective because the bankruptcy’s trustee did not serve “all creditors”
with notice.
4. Motion to invalidate abandonment notice and fraud on the court
By Trustee, Trustee’s attorney, Trustee’s new realtor and Creditor
The Trustee’s motion on December 8, 2015, to make ineffective the Intent to Abandon
Notice issued in 2013 was the result of one individual that filed two oppositions on August 28,
2015. Ms. Hurren was the only party of interest to file a claim to bring the motion before the
bankruptcy court. The court’s ruling was based on the influence of Ms. Hurren’s two
oppositions, her reply, the declarations of the Trustee, his attorney, his real estate agent and
the proof of service attached to the Trustee’s Intent to Abandon Notice. The court did not
consider the authority provided to the trustee by congress and held in accordance to 11 U.S.C.
Rule § 6007(a) and Rule §554(a) that the abandonment notice was deemed ineffective.
5.

Due process violation

In August 2017, Petitioner discovered that a Creditor’s Claim had been filed against him
by Ms. Hurren and the claim was not served on Petitioner. Petitioner confirmed the filing of
the Creditor’s Claim with the Trustee’s attorney and learned that Trustee had knowledge of
the claim since August 13, 2013, but did not file a motion or render notice to Petitioner that
6

Ms. Hurren’s Creditor’s claim existed. Upon learning that a due process violation had occurred
and fraud on the court had been perpetuated against Petitioner since Ms. Hurren had actually
been enriched because she resided in the property for five months’ rent free, Petitioner filed a
motion under Rule 60 (b) in November 2017.
6. Petitioner’s 60 (b) Motion
On December 5, 2017, the motion under Rule 60 (b) was heard, the bankruptcy court made
its ruling by accepting the Trustee’s argument that the motion should be denied based on the
9th Circuit court ruling in the case of Sierra v. Westinghouse, that all debtor’s creditors are
required to be served with notice. The Petitioner filed a timely appeal and the District Court
affirmed the decision of the bankruptcy court. Petitioner appeal to the 9th Circuit Appeal Court
and on August 29, 2019, Petitioner was denied.
IX.

REASONS FOR GRANTING THE PETITION

A. TO AVIOD EGREGIOUS, ABUSIVE OR ERRONEOUS DEPRIVATIONS OF DUE
PROCESS, THIS COURT SHOULD CLARIFY THE “CONSTITUTIONAL AND
STATUTORY PROVISIONS” APPLIED TO PREVENT A BANKRUPTCY COURT
FROM CONTRAVENING A TRUSTEE’S ADMINISTRATIVE AUTHORITY GRANTED
BY CONGRESS

In accordance to the Rules of this court under Rule 10 (a), a case in which the United
States court of appeals has entered a decision in conflict with the decision of another United
States court of appeals on the same important matter or has so far departed from the accepted
and usual course ofjudicial proceedings call for an exercise of this Court's supervisory power.
Millions of bankruptcy petitions are filed in the United States each year. Most are filed
during sever down turns in the economy, especially after the housing market crash of 2008 and
the Covid-19 epidemic we are currently experiencing. A large percent of debtors file for
bankruptcy protection seeking a fresh start in pro se. During the judicial process while in
7

bankruptcy protection seeking a fresh start in pro se. During the judicial process while in
bankruptcy egregious acts that violates the per se debtors’ constitutional rights by the
bankruptcy courts, the trustees and their legal or professional representatives goes unreported.
Currently, once the bankruptcy process go from the administrative stage with only the
trustee, to an adversarial phase involving litigation with the debtor’s creditors, there are no
safeguards in place that actually protect a debtor in pro se from becoming a statistic because
many of the debtors cannot afford an attorney or have the ability to endure the length process
it takes to bring the matter before an impartial tribunal.
A review by the U.S. Supreme Court is necessary to improve the bankruptcy court judicial
system because of the fluctuation of the economy that effects the housing market which
impacts the debtors’ households, especially homeowners and their largest investment, this
makes the pro se debtor a target for abuse when the housing market is recovering.
Because debtors are the most vulnerable to the bankruptcy court’s judicial system during
an economic recovery period, it is necessary to secure uniformity of appellate decisions and
prevent the present state of a circuit split throughout the 9th circuit. This can be achieved by
enforcing the laws enacted by Congress that will bring about uniformity of case law and
resolve the issues of abuse of authority, diminish due process violations, reduce conflicting
case law and have a uniform standard to address important questions of law that effect the
rights of pro se debtors.
In accordance to the authority vested in Congress, statutory codes were enacted as law to
regulate bankruptcy courts as an order to be applied to each bankruptcy case in an impartial
manner. Under this grant of authority, Congress enacted the "Bankruptcy Code" in 1978. The
Bankruptcy Code, which is codified as title 11 of the United States Code, has been amended

8

several times since its enactment. It is the uniform federal law that governs all bankruptcy
cases.
According to 11 U. S. C. § 105(a), a bankruptcy court may not contravene specific
statutory provisions. This case will provide uniformity of case law to prevent a circuit split in
the 9th circuit regarding notice, abandonment of property from the debtor’s estate and ensure
the safeguards from abuse of authority as applied to § 105(a) which “does not allow the
bankruptcy court to override explicit mandates of other sections of the Bankruptcy Code” and
to ensure that bankruptcy courts follows the Supreme Court case in Local Loan Co. v. Hunt,
292 U.S. 234, 244 (1934), which made this point about the purpose of the bankruptcy law in
the 1934 decision: [I]t gives to the honest but unfortunate debtor...a new opportunity in life
and a clear field for future effort, unhampered by the pressure and discouragement of
preexisting debt.
If not addressed, it will constitute an unchecked and unprecedented abuse of constitutional
authority. At present, pro se debtors as the group of persons intended to be protected by filing
for bankruptcy do not have the means to seek redress when there is a violation of their
constitutional rights or to initiate action to improve the bankruptcy court’s judicial system,
especially in the central district and appeal courts in the 9th circuit. The review by the U.S.
Supreme Court will prevent pro se debtors from being stripped of their 14th amendment
constitutional right of due process, it will mandate compliance of uniformity of cases and
require the authority used by bankruptcy courts and trustees to comply as prescribed by
Congress to the federal codes or the federal statutes.
By reviewing this case, the U.S. Supreme Court will improve the future of the bankruptcy
courts’ judicial system and provide for a safeguard to prevent abuse of authority or committing

9

fraud on the court. Without such safeguards, pro se debtors are unlikely to realize or notice
what may happened to them. Moreover, pro se debtors do not have an equal playing field to
adjudicate such claims and are unable to achieve the appropriate legal remedies.
The Court in keeping with Haines v. Kemer, has recognized a pro se litigant's 14th
amendment due process. Petitioner's filings to the appeal court was timely. The Supreme
Court's examination of the lower court dockets will confirm zero deficiencies. In contradiction
to Haines v. Kerner, defendant's attorneys and Judge Manual Real consistently held plaintiff
to an unreasonable standard with respect to presentation of exhibits and material facts. This
condition is further aggravated by defendant's attorneys consistently misrepresenting material
facts and misapplying case law. The Ninth Circuit Court of Appeals declination regarding an
application for an en banc hearing and a petition for a panel rehearing leaves the
aforementioned deficiency unremedied. The 2021 U.S. Supreme Court has the opportunity to
expand upon the case law established through the ruling of the 1971 case of Haines v. Kemer.
Petitioner seeks judicial review in an effort to address this 9th circuit court’s pattern of
abuse. Petitioner's case is merit based. It is precedent setting. If this case is left unremedied the
current bankruptcy court judicial system of constitutional violations, fraud on the court and
abuse of authority will persist against pro se debtors. Boddie v. Connecticut (1971) supra, 401
U.S. at p. 377 [28 L.Ed.2d at pp. 118-119].) Thus, the United States Supreme Court has long
recognized a constitutional right of access to the courts for all persons. Procunier v. Martinez
(1974) 416 U.S. 396, 419 [40 L. Ed. 2d 224, 243, 94 S. Ct. 1800]; Cruz v. Beto (1972) 405
U.S. 319, 321 [31 L. Ed. 2d 263, 267-268, 92 S. Ct. 1079].
At Petitioner’s first hearing in pro se before the bankruptcy court on September 29,
2015, Petitioner’s learned for the first time during the hearing that not “all creditors” were
10

served with the Trustee’s Intent to Abandon Notice, prepared by Trustee. There was no
discussion as to why (i.e. change of addresses, creditors decline farther notification or Trustee
elected to use his discretion and not include certain creditors), only twelve of Petitioner’s sixtysix creditors received notice. Not once did the court make reference to the Trustee’s intent to
abandon the property or Trustee’s authority to use his discretion as to which creditors to give
notice, because their names along with Ms. Hurren’s were not listed, the bankruptcy court
ruled the abandonment notice was ineffective.
As a result of the missing names, the court ordered the trustee to re-notice all creditors.
The Trustee gave notice of the December 8, 2015, hearing to Petitioner’s creditors, there were
no written objections provided to the court clerk from debtor’s creditors giving their express
or implied authorization to the bankruptcy court to consider the creditors’ interest to the motion
or to preserver the creditors’ rights to object as a party of interest. No other creditors objected
to Petitioner’s bankruptcy filing since 2013, except Ms. Hurren as the only party of interest to
respond with a reply almost three years after the abandonment notice was issued.
Moreover, the trustee’s attorney asserted under penalty of perjury that the reason for
his statement that the court should cause the notice of abandonment to be ineffective was
because he agreed that there was significant equity in the Pine Bluff property based on Ms.
Hurren’s reply. The Trustee stated under penalty of perjury that his new real estate agent’s
“market value” agreed with Ms. Hurren’s and his former real estate agent in December 2012,
made a finding of the market value for the Pine Bluff after receiving the BPO (the document
included the size of the lot and square footage of the home) in June and September of 2012,
was Petitioner’s fault because the information provided to the Trustee did not include the
square footage of the home.

11

See In re Consumers Realty & Dev. Co., 238 B.R. 418 (B.A.P. 8th Cir. 1999); In re
Alleghany Inf 1, Inc., 954 F.2d 167,173-74 (3rd Cir. 1992) and the United State Supreme Court
case of Law v. Siegel (an appeal from 9th circuit court) provides the most fundamental
safeguards for debtors where the trustee or bankruptcy court abuse its authority, the U.S.
Supreme court held that the bankruptcy court may not contravene specific statutory provisions.
Here, the bankruptcy court’s records show that the trustee and the court was influenced
by the information provided in the oppositions filed in August 28, 2015, along with the reply
filed in December 2015, and could not be fair and objective toward Petitioner.
Trustee and his attorney and his real estate agent all made false statements in their
declarations and or moving papers, this brought about the fraud on the court and reinforced the
discriminatory practices that were used against Petitioner.
Petitioner discovered the new evidence(s) and case law(s) that supported corruption of
the judicial process and the fraud committed on the court by the parties after the December 8,
2015, hearing according to the case of Toscano v. C.I.R., 441 F.2d 930, 933 (9th Cir. 1971) and
the court’s records showed how the bankruptcy court was prevented from being impartial in
Petitioner’s case. The Court did not review Docket No. 14, it relied on the response of the
Trustee’s attorney, the declaration of the Trustee, and the declaration of Mr. Thomas Bluemel,
the trustee’s real estate agent.
Mr. Bluemel declared under penalty of perjury on September 21, 2015, that he had
conducted valuations of the Pine Bluff Property at the requested time intervals and have
determined that the valuation of the Pine Bluff Property as of the Petition was, in fact
$1,500,000, the valuation as of the date of the Abandonment Notice was $1,600,000 and the
current fair market value is $1,800,000. The Trustee was advised that the Property maintained

12

a collective “fair market valuation” of $1.8 million. Since that time, the Trustee’s real estate
agent conducted an in-home inspection of the Property and determined that the fair market
value is currently $1.6 million. With a current fair market valuation of $1.6 million, less costs
of sale of 8% ($128,000.00) and less secured creditor (1st deed of trust) debt of $277,915.14
and less secured creditor (2nd deed of trust) debt of $500,000.00, the Trustee submits there is
equity in the amount of $694,084.86 in his declaration, EOR, Doc. No. 102, pages 15 and 16.
On December 4, 2015, Anthony A. Friedman as an officer of the court stated that the
market value of the Pine Bluff was $ 1,800,000 and the Trustee submitted to the court that there
was equity in the of $878,804.86 and that the foregoing was true and correct as well, EOR,
Doc. No. 124, pages 2.
The Court having read and considered the Abandonment Notice [Docket No. 42], the
opposition to the Abandonment Notice filed by Janet Hurren [Docket No. 96], the notice of
hearing on the Abandonment Notice [Docket No. 98], the Trustee’s reply to the opposition of
Janet Hurren to the Abandonment Notice [Docket No. 102], the Petitioner’s reply regarding
the Abandonment Notice [Docket No. 121], the response of Janet Hurren to the Appellant’s
reply regarding the Abandonment Notice [Docket No. 123], the Trustee’s supplement to the
opposition of Janet Hurren to the Abandonment Notice [Docket No. 122], the Trustee’s errata
to the supplement to the opposition of Janet Hurren to the Abandonment Notice [Docket No.
124]; the Court having heard the case and considered the arguments presented at the Hearing;
the Court having issued its findings and conclusions on the record at the Hearing; and good
cause appearing, IT IS ORDERED AS FOLLOWS: 1. The Abandonment Notice is ineffective
having not been served on all creditors of the estate.

13

As a result, the Abandonment Notice is DENIED. 2. All estate assets sought to be
abandoned pursuant to the Abandonment Notice remain property of the Petitioner’s
bankruptcy estate subject to the sole and exclusive administration by the Trustee. The
bankruptcy court ordered the Trustee to sell the property and evict the Petitioner.
There was no discussion that the court did not have authority or jurisdiction to cause
the Abandonment Notice to be ineffective according to the Trustee’s administrative authority
to use his discretionary as vested in him by Congress. Nor did the Trustee assert or the
bankruptcy court considered how the federal codes applied to prevent the bankruptcy court
from regaining jurisdiction of debtor’s real property once the Trustee had the intent to abandon
the property and there was no crime or fraud on the party of the debtor that prevented the
Trustee from making the decision to issue an Intent to Abandon Notice.
On appeal, the December 5, 2017, motion under Rule 60 (b), was decided by the district
court without Petitioner being heard on the matter. The district court could have determined
that the bankruptcy court ruling was in error and the trustee along with how the bankruptcy
court misapplied the facts and the law in the Sierra v. Westinghouse case. The Sierra case
should have demonstrated to the district court that the bankruptcy court made an error and did
not have jurisdiction of the Pine Bluff property according to the facts in the case.
In October 1981, Sierra Switchboard filed for bankruptcy. Prior to filing for
bankruptcy, Sierra had a civil case in state court, the entire state action was removed to
bankruptcy court. Westinghouse, the trustee for the estate and others signed a stipulation
dismissing the removed state court action without prejudice, with a proviso that any party could
refile the action within one year.

14

Within one year, Sierra refiled in bankruptcy court. The bankruptcy court dismissed
Sierra's claim without making any findings or conclusions. The district court remanded the
action to bankruptcy court for written findings and conclusions. The bankruptcy court
concluded that because the claim was the property of the bankruptcy estate and had not been
abandoned by the trustee, Sierra lacked capacity to sue. Sierra objected. The district court
affirmed the bankruptcy court decision on the ground that the emotional distress claim was the
property of the estate based on the fact that the trustee did not have the intent to abandon the
property, nor did the trustee exercise his authority to return the property to Sierra.
The district court affirmed the bankruptcy court’s ruling by accepting the Trustee’s
argument that the motion should be denied based on the 9th Circuit court ruling in the case of
Sierra v. Westinghouse because “all debtor’s creditors” were required to be served with the
Trustee’s Intent to Abandon Notice. Petitioner made the argument in his opposition that the
Sierra case did not apply to his case because the Trustee in his case had the authority, used his
discretion, had the intent to return the properties to Petitioner and intended to issue notices to
the twelve creditors only and not all sixty-six as listed on the creditors mailing list filed in
Petitioner’s schedule.
Petitioner’s real properties had been properly abandoned, unlike in the Sierra’s case
where the trustee did not intend to abandon debtor’s (personal injury case) property. And as
the Trustee, he used judicial economy at his discretion and gave notice together with the
notices of the meeting of creditors so that separate notices would not be required. However,
the trustee made no such arguments in his reply to overcome the influence of the two
oppositions and the reply filed by the only party who asserted an interest to be heard before
the bankruptcy court on December 8, 2015.

15

The Trustee had exercised his authority vested in him from congress, the abandonment
should have been irrevocable in accordance to 11 U.S.C. Rule § 6007(a) and §554. Neither
§554 nor §725 specify to whom the notices are to be sent. Section 725 requires the trustee to
dispose of property in which someone other than the estate has an interest, prior to final
distribution. This section is applicable in chapter 7 cases.
This type of egregious act and abuse is perhaps common in the bankruptcy system but is
rarely known to exist and would not come to the attention of this court unless one out of the
millions of bankruptcy cases has a pro se debtor that is prepared to assert his or her rights all
the way to the U.S. Supreme Court which was demonstrated in the case of Law v. Siegel in
the 9th circuit, involved the same Bankruptcy Trustee, the contravene of federal law by the
Trustee and similar circumstances where a debtor in pro se has been subject to abuse of
authority by the Trustee and the bankruptcy judicial system.
Moreover, how can a circuit split exist within the 9th circuit court of appeal where
congress gives authority to a Trustee, at his discretion to abandon property, that specific federal
codes exist that after the Trustee affirmatively administers the estate’s property before the case
close the abandon asset cannot be reclaimed by the Trustee for sale.
Therefore, without review by the U.S. Supreme Court, fraud on the court will continue
to impact the rights of pro se debtors.
The one-year limitations period of FRCP 60(b)(3) does not limit court’s power to set
aside judgment under “fraud on the court” doctrine. See Outen v Baltimore County 177 FRD
346, 348 (1998, DC Md). Fraud on the court is distinguished from other types of fraud in that
it is generally applied only in the most egregious cases. For example, the Ninth Circuit Court

16

of Appeals stated in Toscano v. Comm’r, 441 F.2d 930, 933-34 (9th Cir. 1971) that the term
“fraud upon the court” must be construed narrowly in connection with Rule 60.
See Outen v Baltimore County 177 FRD supra at 349. (Citations omitted.) affirmed
Outen v. Baltimore County 164 F.3d 625 (4th Cir. 1998). However, the Ninth Circuit Court of
Appeals held that a lawyer’s failure to disclose evidence during discovery constituted fraud
upon the court. The United States Supreme Court has also noted the inherent power of courts
to vacate judgments on basis of fraud upon the court. See Chambers v. NASCO, Inc., 501 U.S.
32, 44(1991).
The above-cited acts and omissions reveal that (1) the Court committed fraud upon the
court and (2) the Judgment and Order were entered in a manner inconsistent with due process
of law; to wit: One of the very objects of law is the impartiality of its judges in fact and
appearance .... The relevant consideration under § 455(a) is the appearance of partiality ... not
where it originated or how it was disclosed. . . Liteky v. United States, 510 U.S. 540, 558
(1994). A fair trial in a fair tribunal is a basic requirement of due process.
In In re Murchison, 349 U.S. 133, 136 (1955) and Bulloch v. United States, 763 F.2d
1115,1121 (10th Cir. 1985), the court held that fraud upon the court is fraud which is directed
to the judicial machinery itself and is not fraud between the parties or fraudulent documents,
false statements or perjury.... It is where the court or a member is corrupted or influenced
or influence is attempted or where the judge has not performed his judicial function —
thus where the impartial functions of the court have been directly corrupted."
Here, the Bankruptcy Court having read and considered the Abandonment Notice
EOR, [Docket No. 42] (see Exhibit 2), the opposition to the Abandonment Notice filed by Jan
Hurren EOR, [Docket No. 96] (see Exhibit 5), the notice of hearing on the Abandonment

17

Notice EOR, [Docket No. 98] (see Exhibit 6), the Trustee’s reply to the opposition of Jan
Hurren to the Abandonment Notice EOR, [Docket No. 102] (see Exhibit 7), the Debtor’s reply
regarding the Abandonment Notice EOR, [Docket No. 121] (see Exhibit 8), the response of
Jan Hurren to the Debtor’s reply regarding the Abandonment Notice EOR, [Docket No. 123]
(see Exhibit 10), the Trustee’s supplement to the opposition of Jan Hurren to the Abandonment
Notice EOR, [Docket No. 122] (see Exhibit 9), the Trustee’s errata to the supplement to the
opposition of Jan Hurren to the Abandonment Notice EOR, [Docket No. 124] (see Exhibit 11);
the Court having heard and considered the arguments presented at the Hearing; the Court
having issued its findings and conclusions on the record at the Hearing; and good cause
appeared to render a ruling.

Here, the court ordered that the Abandonment Notice is ineffective having not been
served on all creditors of the estate. As a result, the Abandonment Notice is DENIED. All
estate assets sought to be abandoned pursuant to the Abandonment Notice remain property of
the Debtor’s bankruptcy estate subject to the sole and exclusive administration by the Trustee.
The right to a tribunal should be free from bias or prejudice is based, not on section
144, but on the Due Process Clause .... United States v. Sciuto, 521 F.2d 842, 845 (7th Cir.,
1976). The Court is authorized and required to vacate judgments and orders entered in a
manner inconsistent with due process of law; to wit: A judgment is void if the court that
rendered it... acted in a manner inconsistent with due process.
The Notice of Hearing on Notice of Proposed Abandonment of property of the Estate
filed by Chapter 7 trustee EOR, [Docket No. 42] served on Petitioner stated that on August 28,
2015, creditor Janet Hurren, asserting that she had never received notice of the abandonment

18

Notice, filed an opposition to the Abandonment Notice and requested a hearing on the
Abandonment Notice EOR, [Docket No. 96].
Margo v. Johns, 660 F .2d 291 (7th Cir. 1981); In re Four Seasons Securities Laws
Litigation, 502 F.2d 834 (10th Cir. 1974), cert, denied, 419 U.S. 1034, 95 S.Ct. 516,42 L.Ed.2d
309 (1975). Mere error does not render the judgment void unless the error is of constitutional
dimension. Simer v. Rios, 661 F.2d 655 (7th Cir.1981), cert, denied, sub nom Simer v. United
States, 456 U.S. 917, 102 S.Ct. 1773, 72 L.Ed.2d 177 (1982). Klugh v. United States, 620
F.Supp. 892 (1985). We believe that a judgment, whether in a civil or criminal case,
reached without due process of law is without jurisdiction and void... because the United
States is forbidden by the fundamental law to take either life, liberty or property without
due process of law, and its courts are included in this prohibition.... Bass v. Hoagland,
172 F.2d 205 (5th Cir.), cert, denied, 338 U.S. 816, 70 S.Ct. 57, 94 L.Ed. 494 (1949).

[I]f it is void; it is a per se abuse of discretion for a district court to deny a movant's
motion to vacate the judgment." United States v. Indoor Cultivation Equip, from High Tech
Indoor Garden Supply, 55F.3dl 311, 1317 (7th Cir. 1995). A judgment is void and should be
vacated pursuant to Rule 60(b)(4) if “the court that rendered the judgment acted in a manner
inconsistent with due process of law." Id at 1316 (citations omitted)... Price v. Wyeth Holdings
Corp., 505 F.3d 624 (7th Cir., 2007). "[Djenying a motion to vacate a void judgment is a per
se abuse of discretion." Burrell v. Henderson, et al, 434 F.3d, 826, 831 (6th Cir., 2006).

Here, the following arguments took place at the December 8, 2015, hearing; MR.
SHAY: Okay. So for my clarification with all due respect are you saying that the intent to
abandon that was signed in January of 2013 has no effect? THE COURT: Yes, that’s right

19

because not all creditors were served. [Page 5] THE COURT: That’s required by the Federal
Rules of Bankruptcy Procedure Rule 6007(a). Have to serve all creditors. He didn’t do that.
He just served some creditors, some parties. So, it’s a denial of due process to all the creditors,
so if it’s — you know, you can’t abandon unless — and also under our Local Rules you can’t
abandon unless proper service is made. You know, the Court didn’t review that because there’s
no hearing on it. MR. SHAY: And who were the creditors — THE COURT: On the mailing
matrix that you filed with the Court. All the creditors you put on your mailing matrix when
you filed your petition or your amended matrix. MR. SHAY: So, all of those creditors were
not notified? THE COURT: That’s right. So, it wasn’t done right. Trustee’s counsel concedes
that, so he’ll just do it again, (see Exhibit 12), EOR, Transcripts Motion date 12/08/15, Line
21-25, page 4, Line 1-21, page 5.
Under California Civil Code § 3294, “Fraud” means an intentional misrepresentation,
deceit, or concealment of a material fact known to the defendant with the intention on the part
of the defendant of thereby depriving a person of property or legal rights or otherwise causing
injury.

The document stated that the Petitioner’s primary residence was grossly misrepresented
in the original schedule submitted to the Trustee in May 2012 as $746,000 (see Exhibit 13)
EOR, Docket 95, page 2, filed 08/28/15.

A finding of fraud on the court is justified only by the most egregious misconduct
directed to the court itself, such as bribery of a judge or jury or fabrication of evidence by
counsel, and must be supported by clear, unequivocal and convincing evidence.”’
Landscape Prop., Inc. v. Vogel, 46 F.3d 1416, 1422 (8th Cir. 1995) (quoting Pfizer, Inc. v.

20

Int’l Rectifier Corp. (In re Coordinated Pretrial Proceedings in Antibiotic Antitrust Actions),
538 F.2d 180, 195 (8th Cir. 1976)) (emphasis added); see also Rozier v. Ford Motor Co., 573
F.2d 1332, 1338 (5th Cir. 1978).
Here, it is clear that the most egregious misconduct that the Trustee and his attorney
did was too join in with the plan based on the documents filed on August 28, 2015, was used
to influence the court, (the Pine Bluff Property was) “today the property is valued is
somewhere between $1,700,000 and $2,200,000”. The opposition stated “where are proper
valuations provided by appraisers to support the debtors grossly understated valuation?
Why was this valuation changed in the notice to abandon? Was it an error on the part of
a very busy Trustee?” (see Exhibit 13) EOR, Docket 95 pages 2,3 and 4 filed on 08/28/15.
Woodcock v. U.S. Dept, of Educ. (In re Woodcock), 326 B.R. 441, 448 (B.A.P. 8th
Cir. 2005). ‘“Less egregious misconduct, such as nondisclosure to the court of facts allegedly
pertinent to the matter before it, will not ordinarily rise to the level of fraud on the court.’”
Rozier, 573 F.2d at 1338 (quoting U.S. v. Int’l Tel. & Tel. Corp., 349 F. 4

Here, the Trustee stated that Petitioner originally failed to disclose the Pine Bluff
Property. The Trustee received information from his former real estate agent advising him
that the comparables to the Pine Bluff Property rendered the value of the Pine Bluff Property
at $670,000, and based on that mistaken analysis, the Trustee caused to include the Pine
Bluff Property in the Abandonment Notice. The Trustee has learned that the valuation of
the Pine Bluff Property as of the Petition Date was, in fact, $1,500,000, the valuation as
of the date of the Abandonment Notice was $1,600,000 and the current fair market value
is $1,800,000 (which amounts are consistent with the valuations set forth in Ms. Hurren
oppositions).
21

Here, the Trustee stated, as a result of the misinformation provided by the Debtor
regarding the value of the Pine Bluff Property, together with the Trustee’s former real estate
agent not properly valuing the Pine Bluff Property, the Trustee mistakenly caused to include
the Pine Bluff Property in the Abandonment Notice. As stated in the Trustee’s Reply, as a
result of the filing of the opposition, the Trustee engaged a different, independent real estate
broker, Coldwell Banker to conduct a valuation of the Pine Bluff Property as of the Petition
Date (i.e. May 2012), the date of the Abandonment Notice (i.e. January 2013) and the current
fair “market valuation” (i.e. September 2015). The Trustee was advised that the valuation of
the Pine Bluff Property as of the Petition Date was, in fact, $1,500,000, the valuation as of the
date of the Abandonment Notice was $1,600,000 and the current fair market value is
$1,800,000. According to Debtor’s Second Amended Schedules, the secured debt against the
Pine Bluff Property was $736,830.00. With a fair market value of $1,800,000. (see Exhibit 7)
EOR, Docket No. 102, pages 8-11.
Therefore, fraud on the court occurs only in the most egregious cases where the judicial
machinery itself has been tainted, such as when an attorney, who is an officer of the court, is
involved in the perpetration of a fraud or makes material misrepresentations to the court as
evidenced by the court records’ in this case. Fraud upon the court makes void the orders and
judgments of that court and is supported by the facts stated above.
"To prove a conspiracy the agreement need not be explicit; it is sufficient if the
conspirators knew or had reason to know of the scope of the conspiracy and that their
own benefits depended on the success of the venture." United States v. Montgomery, 384
F.3d 1050, 1062 (9th Cir. 2004) (citing United States v. Romero, 282 F.3d 683, 687 (9th Cir.
2002)). A conspiracy may exist even if some members of the conspiracy cannot complete the
22

offense, so long as the object of the conspiracy is that at least one conspirator complete the
offense. Ocasio v. United States, 136 S.Ct. 1423, 1429-32 (2016).
Here, the court records established that the conspirators knew or had reason to know
of the scope of the conspiracy and that their own benefits depended on the success of the
venture. The Trustee’s attorney filed a Reply of Chapter 7 Trustee to Oppositions filed by
Creditor Hurren which provided “The oppositions filed by Hurren raise a significant issue with
regard to the Pine Bluff Property and the potential viability of that real property for the benefit
of creditors. The Debtor’s Original Schedules fail to schedule the Pine Bluff Property. He
stated that Trustee was provided an analysis with a value of $670,00 that did not take
into account the actual square footage of the Pine Bluff Property compared to the other
sales.
In the declaration of Alfred H. Siegel, he declared that as a result of the filing of the
oppositions by Hurren, I engaged Thomas Bluemel to conduct a valuation of the Pine Bluff
Property, he agreed with the values determined by Mr. Bluemel.
In the declaration of Thomas Bluemel, he declared that as a licensed real estate
agent since 1982 and specialize in the Pasadena area. He conducted valuations of the Pine
Bluff Property at the times requested and determined on the Petition Date the value was
$1,500,000, on the date of the Abandonment Notice it was $1,600,000 and the current fair
market value was $1,800,000 as of September 21, 2015. (see Exhibit 7) EOR, Docket No.
102, filed 09/22/15, pages 7,14,15,16 and 17. These facts show that a conspiracy existed.
However, after his inspection of the Pine Bluff property, Mr. Blumel determined the
fair market value was $1,600,000 and after six months on the market and three price
reductions, the trustee accepted the only offer with the fair “market value” of $ 1,200,000.

23

Therefore, the egregious conduct continued by the Trustee’s influence to ensure that
the court would acquiescence to the plan to cause harm to Petitioner, (see Exhibit 5) EOR,
Docket 96, page 1 and 2 filed 08/28/15.
Under the laws of most states where aiding and abetting are recognized, a claim for
aiding and abetting the breach of a fiduciary duty requires a showing that there (1) existed a
fiduciary relationship, (2) was a breach of the fiduciary's duty, (3) was a knowing participation
in the breach by a defendant who is not a fiduciary and (4) that damages are proximately caused
by the breach. Furthermore, to the extent the underlying breaches of fiduciary duty are based
on fraudulent conduct, the complaint must meet the requirement of Rule 9(b) of the Federal
Rules of Civil Procedure, which mandates that all allegations of fraud must be pled with
particularity.
Elowever, Rule 9(b)'s particularity requirement does not apply to "conditions of the
mind"—including knowledge—that may be averred generally. Accordingly, they are owed the
common law fiduciary duties applicable to trustees as well as the statutory duties set forth in
11 U.S.C. §§ 704, 1106, 1202, or 1302. As the trustee, Alfred H. Seigel had a fiduciary
relationship to aid in carrying out his fiduciary obligations to the bankruptcy estate. A trustee’s
duty of obedience is defined and measured by the scope of his or her authority which subsumes
that any actions taken are lawful.
After the filing of the opposition (see Exhibit 13) EOR, Docket No. 95, filed 08/28/15,
page 2 and 3, Ms. Hurren stated “The true and correct valuation of this luxury 4500sf home
that backs up to a green belt, with views and pool is indeed S1.45M and may in fact have
been more. Today the property is valued somewhere between $1,700,000 and
$2,200,000.”

24

William Friedman and Thomas Bluemel had an interest, the listing of the Pine Bluff
Property. Mr. Bluemel corroborated Ms. Hurren’s information, this was done to influence the
court by making false statements as to the current market value for the Pine Bluff Property.
Petitioner’s opposed the Application to employ Trustee’s realtor Mr. Bluemel for this
very reason, EOR, Docket No. 145, pages 1 of 49 (see Exhibit 14). The court records are clear
that Trustee breached his fiduciary duty because it was unreasonable to think that there was a
$500,000 ($2,200,000 -$1,700,000 = $500,000 or $2,200,000 - 1,200,000 = $1,000,000) or a
$1,000,000 in equity, this was after the property was on the market over six months with the
Trustee authorizing Mr. Bluemel another six-month listing period.
Case law clearly provides for 60 days as a reasonable listing period, EOR, Docket No.
133 pages 1-29 and Docket No. 149, pages 1 of 2 (see Exhibit 4). The property was originally
listed 04/13/2016 for $1,600,000, the price was reduced to $1,399,000 on 05/12/2016, down
to $1,299,000 on 09/08/2016 and the third price was reduced to $1,200,005 (twenty-five
thousand more than Petitioner testified too on December 8, 2015, having a “market value” of
$1,180,000) with only one offer with the buyer’s offer of $1,200,000 Docket No. 161, pages
31-38 (see Exhibit 19). The Trustee accepted the offer with the “market price” of $1,200,000
on or about October 18, 2016, the Trustee extended the listing agreement with Mr. Bluemel
until April 20, 2017, and opened escrow with the buyer, EOR, Docket No. 163, pages 8-16
(see Exhibit 20).
Petitioner had filed a motion to abandon the property, Petitioner’s value was $1,180,000
in December 2015, and the market price of the accepted offer of $1, 200,000. The Petitioner
made the argument that based on the accepted offer, after considering the mortgages, back

25

taxes and exemption credit the property had inconsequential value to the estate and the court
rejected Petitioner’s argument and denied Petitioner’s motion.
Here, the oppositions filed on August 28, 2015, were used to ensure that it would influence
the judicial process. It stated “Mr. Shay takes advantage of the court by filing unfounded
and false statements intended to delay or defeat the proceedings in the already three
years plus bankruptcy. Including his current suit against the County of Los Angles and the
Sherriff s department over May 2014 arrest for alleged Mortgage fraud.
While he files his motions in Pro Per, one should not afford Mr. Shay the leeway of an
average laymen. As a law school dropout, Mr. Shay has found a far more lucrative
avocation suing individuals and corporations. He has to date more than 80 civil lawsuits in
Los Angeles and San Bernardino County’s alone, to his credit. Spending arguably more time
in the State court rooms than in his Real Estate business, Mr. Shay shamelessly utilize the
State’s courts and resources (paying no court fees in over three years for example),
shaking down his victims with predatory filings against clients, tenants, vendors,
servicers, the city and county governments and any one unfortunate enough to be in his
path. During his three plus years bankruptcy, Mr. Shay re-rented the defaulted property taking
yet another security deposit which he failed to return when that property was finally foreclosed
in June 2015 and prompting his amendment.”
The oppositions filed in 2015 was used to attack Petitioner’s character and influenced the
court by statements i.e., “Although there is no compensation for the distress and wrongful
actions Mr. Shay has brought, it is my hope that this court will exact some measure of
justice in spite of his manipulations, and innocent creditors be finally repaid.” (see Exhibit
10) EOR, Docket No. 123 Filed 12/01/15 pages 1-4.

26

In December 2017, Petitioner filed an appeal after the court denied Petitioner’s motion
and Petitioner learned of the fraud on the court. Petitioner served the Trustee and Ms. Hurren
with notice of the Rule 60 (b) motion heard on December 5, 2017 as the parties with interest
involved in the motion heard on December 8, 2015, which caused the Abandonment Notice
granted in January 2013, to be ineffective.
Rule 60(b)(4) allows a party to seek relief from a final judgment that “is void,” but only
in the rare instance where a judgment is premised either on a certain type ofjurisdictional error
or on a violation of due process that deprives a party of notice or the opportunity to be heard
and was deprived of a protected interest.
The Ninth Circuit has defined fraud on the court as a species of fraud that "defiles the
court itself... so that the judicial machinery cannot perform in the usual manner". The court
goes on to say that fraud, without more, should have redress under a motion pursuant to Rule
60(b)(3). Toscano v. C.I.R., 441 F.2d 930, 933 (9th Cir.1971). Rule 60(b)(6) allows a court,
upon a motion, to "relieve a party from a final judgement, order or proceeding . . . [for] any
other reason justifying relief from the operation of the judgment." There is no time limitation
on requests for relief brought under this subsection. Fed.R.Civ.P. 60(b)(6) that is still pending
in Petitioner’s case along with the fact that the court ruled that Petitioner was entitled to
recover.
Therefore, the court records presented above support a finding that the parties
committed fraud on the court.
The Supreme Court made this point about the purpose of the bankruptcy law in a
1934 decision: [I]t gives to the honest but unfortunate debtor.. .a new opportunity in life and a
clear field for future effort, unhampered by the pressure and discouragement of preexisting
27

debt. Local Loan Co. v. Hunt, 292 U.S. 234,244 (1934). Williams v. U.S. Fidelity & Guaranty
Co., 236 U.S. 549, 554, 555, 35 S.Ct. 289, 290, 59 L.Ed. 713. See In re Consumers Realty &
Dev. Co., 238 B.R. 418 (B.A.P. 8th Cir. 1999); In re Alleghany Inf 1, Inc., 954 F.2d 167, 17374 (3rd Cir. 1992) and the United State Supreme Court case of Law v. Siegel (appealed from
9th circuit court) provides the most fundamental safeguards for debtors where the trustee or
bankruptcy court abuse its authority, that is that it may not contravene specific statutory
provisions.
A bankruptcy court has statutory authority to “issue any order, process, or judgment
that is necessary or appropriate to carry out the provisions of’ the Bankruptcy Code. 11 U. S.
C. § 105(a). In exercising those statutory and inherent powers, a bankruptcy court may not
contravene specific statutory provisions. Thus, the Bankruptcy Court’s “surcharge” was unau­
thorized if it contravened a specific provision of the Code. We conclude that it did.
Based on the facts as stated above, the court’s records and the legal authority from Article
1, Section 8, 11 U.S.C Rule § 102(1), “after notice, a hearing” or 11 USC § 102(6) “order for
relief’ means entry of an order for relief and 11 U. S. C. § 105(a), a bankruptcy court may not
contravene specific statutory provisions, According to 11 U.S.C, Rule§554 subdivision (a), the
recent precedent of Law v. Siegel with the other authority from the 9th Circuit Court established
that Petitioner’s case has merit.
Under 11 U.S.C Code 102 (B) (2) and according to the case of Law v. Siegel, the case
set forth the precedent to prevent abuse of authority of bankruptcy courts and the trustees are
not to act in contravene of the law. In the Law v. Siegel case, the debtor in pro se argued where
Congress clearly expressed exceptions to exemptions and provides penalties for wrongful
conduct, the Court should not circumvent these provisions. That it is contrary to the text of the

28

Code as well as Congress’ clearly expressed intent to use the court’s equity authority to deprive
a creditor of a homestead exemption.
According to Law, this means that debtors should emerge from bankruptcy with enough
property that the public will not need to support them. Law notes that Congress intended to
provide this fresh start even if it meant that creditors’ claims are sometimes unsatisfied and the
trustee is left responsible for the costs of administering the estate. Accordingly, a court cannot
deny that exemption without a clearly expressed intention from Congress.
Petitioner humbly request that this case which deals with issues of public and social
interest and impacts the future of debtors in pro se. Only this court can provide the protection
that is needed for debtors in pro se to get their “fresh start” according to the holding in the
Supreme Court case in Local Loan Co. v. Hunt, 292 U.S. 234, 244 (1934), as well as the
protections under 14th amendment with the inalienable rights guaranteed under the U.S.
Constitution.
X.

CONCLUSION

Therefore, Petitioner respectfully ask the U.S. Supreme Court to grant this petition as
requested.

Dated: March 19,2021

RespectfeUw-submitti

Allen Shay, Petitioner in Pr<

29

